Appellate Case: 20-1277

Document: 010110458930

Date Filed: 01/04/20f?LEpage: 1

United States Court of Appeals
Tenth Circuit

UNITED STATES COURT OF APPEALS

January 4, 2021

FOR THE TENTH CIRCUIT

Christopher M. Wolpert
Clerk of Court

SKYLER CHIRAS,
Plaintiff - Appellant,
v.

JILL MARSHALL,

No. 20-1277
(D.C.No. 1:20-CV-00682-LTB-GPG)
(D. Colo.)

Defendant - Appellee.
ORDER DENYING CERTIFICATE OF APPEALABILITY*
Before MATHESON, KELLY, and EID, Circuit Judges.
Skyler Chiras is in state custody at the Colorado Mental Health Institute at Pueblo.
Appearing pro se, he seeks a certificate of appealability (“COA”) to challenge the district
court’s denial of his application for relief under 28 U.S.C. § 2241. See 28 U.S.C.
§ 2253(c)(1)(A); Montez v. McKinna, 208 F.3d 862, 867 (10th Cir. 2000) (requiring state
prisoners bringing a § 2241 claim to obtain a COA before being heard on the merits of

* This order is not binding precedent except under the doctrines of law of the case,
res judicata, and collateral estoppel. It may be cited, however, for its persuasive value
consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

Appellate Case: 20*1277

Document: 010110458930

Date Filed: 01/04/2021

Page: 2

the appeal). Exercising jurisdiction under 28 U.S.C. § 1291, we deny a COA and dismiss
this matter. We also deny his request to proceed in forma pauperis (“$?”).1
I. BACKGROUND
Mr. Chiras pled not guilty by reason of insanity to assault charges. In his § 2241
application, he alleged violations of his (1) Sixth Amendment right to a speedy trial; (2)
Eighth Amendment rights due to denial of requested diet, harassment, theft of property,
and other claims; and (3) Fourteenth Amendments rights due to harassment and mail
tampering.
The magistrate judge recommended dismissal because his (1) first claim
challenged the validity of his conviction and should have been brought under 28 U.S.C.
§ 2254, and (2) second and third claims concerned his conditions of confinement and
should have been brought under 42 U.S.C. § 1983.
The district court, noting that Mr. Chiras had not objected to the magistrate
judge’s recommendation, dismissed the § 2241 application without prejudice, denied a
COA, and denied ifp status on appeal.
In response to a show-cause order from this court to address whether he had
waived his right to appellate review by failing to object to the magistrate judge’s
recommendation, Mr. Chiras appeared to say he did not receive the recommendation.

i

We construe Mr. Chiras’s pro se filings liberally, but we do not act as his
advocate. Yang v. Archuleta, 525 F.3d 925, 927 n.l (10th Cir. 2008).

2

Appellate Case: 20-1277

Document: 010110458930

Date Filed: 01/04/2021

Page: 3

II. DISCUSSION
Under this court's “firm waiver rule,” failure to timely object to a magistrate
judge's findings and recommendations “waives appellate review of both factual and legal
questions.” Casanova v. Ulibarri, 595 F.3d 1120, 1123 (10th Cir. 2010) (quotations
omitted). We may grant relief from the rule “in the interests of justice.” Id. (quotations
omitted). We have considered as factors “the force and plausibility of the explanation for
his failure to comply and the importance of the issues raised.” Id. (quotations and
alterations omitted).
Even if we accept Mr. Chiras’s explanation for his failure to object, he faces
another waiver problem: His brief fails to address whether the substantive reasons for
denial of his application were valid. As a general rule, a party's failure to address an
issue in the opening brief results in that issue being deemed waived, and we will decline
to reach the merits of waived issues. See Wyo. v. Livingston, 443 F.3d 1211, 1216 (10th
Cir. 2006) (“Wyoming did not address this issue in its opening appellate brief. The issue
is therefore waived.”); accordLifeWise Master Funding v. Telebank, 374 F.3d 917, 927
n. 10 (10th Cir. 2004). This rule applies equally to pro se litigants. See Toevs v. Reid, 685
F.3d 903, 911 (10th Cir. 2012).
Beyond these problems, the magistrate judge and district court correctly
determined that Mr. Chiras’s speedy trial claim should have been brought under
28 U.S.C. § 2254, and his Eighth and Fourteenth Amendment conditions-of-confmement
claims should have been brought under 42 U.S.C. § 1983. A § 2241 application
ordinarily attacks the execution of a sentence rather than its validity. See Brace v. United
3

Appellate Case: 20-1277

Document: 010110458930

Date Filed: 01/04/2021

Page: 4

States, 634 F.3d 1167, 1169 (10th Cir. 2011). Mr. Chiras needed to file a § 2254
application “to collaterally attack the validity of a conviction and sentence.” McIntosh v.
US. Parole Comm’n, 115 F.3d 809, 811 (10th Cir. 1997) (citations omitted). And“[i]t is
well-settled law that prisoners who wish to challenge only the conditions of their
confinement... must do so through civil rights lawsuits ... not through federal habeas
proceedings.” Palma-Salazar v. Davis, 677 F.3d 1031, 1035 (10th Cir. 2012) (omissions
in original) (quotation omitted).
Before we may exercise jurisdiction over Mr. Chiras’s appeal, he must obtain
COAs for the issues he wishes to raise. See 28 U.S.C. § 2253(c)(1)(A), (c)(3). “At the
COA stage, the only question is whether the applicant has shown that ‘jurists of reason
could disagree with the district court’s resolution of his constitutional claims or that
jurists could conclude the issues presented are adequate to deserve encouragement to
proceed further.’” Buck v. Davis, 137 S. Ct. 759, 773 (2017) (quoting Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003)).

4

Appellate Case: 20-1277

Document: 010110458930

Date Filed: 01/04/2021

Page: 5

III. CONCLUSION
For the foregoing reasons, we conclude that Mr. Chiras has not made the showing
required for a COA. We therefore affirm the dismissal of his § 2241 application and
deny his request to proceed ifp.

Entered for the Court
Scott M. Matheson, Jr.
Circuit Judge

5

Appellate Case: 20-1277

Document: 010110458933

Date Filed: 01/04/2021

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
OFFICE OF THE CLERK
Byron White United States Courthouse
1823 Stout Street
Denver, Colorado 80257
(303) 844-3157
Christopher M. Wolpert
Clerk of Court

January 04, 2021

Skyler Chiras
CMHIP - Colorado Mental Health Institute at Pueblo
1600 West 24th Street
Pueblo, CO 81003
RE:

20-1277, Chiras v. Marshall
Dist/Ag docket: l:20-CV-00682-LTB-GPG

Dear Appellant:
Enclosed is a copy the court’s final order issued today in this matter.
Please contact this office if you have questions.
Sincerely,

Christopher M. Wolpert
Clerk of the Court

CMW/na

Jane K. Castro
Chief Deputy Clerk

Case l:20-cv-00682-LTB-GPG Document 13 Filed 07/21/20 USDC Colorado Page lot2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 20-CV-00682-LTB-GPG
SKYLAR CHIRAS
Applicant,

v.
JILL MARSHALL
Respondent.
ORDER
This matter is before the Court on the Recommendation of United States
Magistrate Judge filed on June 22, 2020 (ECF No. 12). The Recommendation states
that any objection to the Recommendation must be filed within fourteen days after its
service. See 28 U.S.C. § 636(b)(1)(C). The Recommendation was served on June 22
2020. No timely objection to the Recommendation has been filed, and Plaintiff is
therefore barred from de novo review.
Accordingly, it is
ORDERED that the Recommendation of United States Magistrate Judge (ECF
No. 12) is accepted and adopted. It is
FURTHER ORDERED that the Application for a Writ of Habeas Corpus Pursuant
to 28 U.S.C. § 2241 (ECF No. 1) and this action are DISMISSED WITHOUT
PREJUDICE for failure to assert a cognizable § 2241 habeas corpus claim. It is

1

Case l:20-cv-00682-LTB-GPG Document 13 Filed 07/21/20 USDC Colorado Page 2 of 2

FURTHER ORDERED that all pending motions are DENIED as moot. It is
FURTHER ORDERED that leave to proceed in forma pauperis on appeal is
denied without prejudice to the filing of a motion seeking leave to proceed in forma
pauperis on appeal in the United States Court of Appeals for the Tenth Circuit. It is
FURTHER ORDERED that no certificate of appealability issue because jurists of
reason would not debate the correctness of this procedural ruling and Applicant has not
made a substantial showing of the denial of a constitutional right.
DATED at Denver, Colorado, this

21st

day of

July

, 2020.

BY THE COURT:
s/Lewis T, Babcock
LEWIS T. BABCOCK, Senior Judge
United States District Court

2

Case l:20-cv-00682-LTB-GPG

Document 12 Filed 06/22/20 USDC Colorado Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO

Civil Action No. 20-CV-00682-LTB-GPG
SKYLAR CHIRAS,
Applicant,
v.
JILL MARSHALL,
Respondent.

RECOMMENDATION OF UNITED STATES MAGISTRATE JUDGE

This matter comes before the Court on the Application for a Writ of Habeas
Corpus Pursuant to 28 U.S.C. § 2241 (ECF No. 1)1 filed pro se by Applicant on March
11,2020. The matter has been referred to this Magistrate Judge for recommendation
(ECF No. 11)2.

1 “(ECF No. 1)” is an example of the convention I use to identify the docket number assigned to
a specific paper by the Court’s case management and electronic case filing system (CM/ECF). I
use this convention throughout this Recommendation.
2 Be advised that all parties shall have fourteen (14) days after service hereof to serve and file
any written objections in order to obtain reconsideration by the District Judge to whom this case
is assigned. Fed. R. Civ. P. 72(b). The party filing objections must specifically identify those
findings or recommendations to which the objections are being made. The District Court need
not consider frivolous, conclusive, or general objections. A party’s failure to file such written
objections to proposed findings and recommendations contained in this report may bar the party
from a de novo determination by the District Judge of the proposed findings and
recommendations. United States v. Raddatz, 447 U.S. 667, 676-83 (1980); 28 U.S.C. §
636(b)(1). Additionally, the failure to file written objections to the proposed findings and
recommendations within fourteen (14) days after being served with a copy may bar the aggrieved
party from appealing the factual findings and legal conclusions of the Magistrate Judge that are
accepted or adopted by the District Court. Thomas v. Arn, 474 U.S. 140, 155 (1985); Moore v.
United States, 950 F.2d 656, 659 (10th Cir. 1991).

1

Case l:20-cv-00682-LTB-GPG Document 12 Filed 06/22/20 USDC Colorado Page 2 of 6

The Court has reviewed the filings to date. The Court has considered the case
file and the applicable law and is sufficiently advised in the premises. This Magistrate
Judge respectfully recommends that the action be dismissed.
I.

Background
Applicant Skylar Chiras is currently in the custody of the Colorado Mental Health

Institute at Pueblo (CMHIP). He has filed pro se an Application for a Writ of Habeas
Corpus Pursuant to 28 U.S.C. § 2241 (ECF No. 1) and a Prisoner’s Motion and
Affidavit for Leave to Proceed Pursuant to 28 U.S.C. § 1915 in a Habeas Corpus
Action (ECF No. 2). He has been granted leave to proceed in forma pauperis. (ECF
No. 7).
On May 1,2020, the Court ordered Applicant to file an Amended Habeas
Application. (ECF No. 8). Specifically, Mr. Chiras was directed to file an Amended
Habeas Application that asserted cognizable habeas claims pursuant to 28 U.S.C.
§ 2241. He was informed that if he wished to assert claims challenging the conditions
of his confinement, he must file a new civil action in this Court and utilize the courtapproved Prisoner Complaint form. Further, if he wished to assert claims challenging
the validity of his conviction, he should file an Application for a Writ of Habeas Corpus
Pursuant to 28 U.S.C. § 2254.
Mr. Chiras failed to file an amended application within the time allowed.
Therefore, the § 2241 application filed on March 11,2020, is the operative pleading.
The court must construe the § 2241 application liberally because Mr. Chiras is
not represented by an attorney. See Haines v. Kerner, 404 U.S. 519, 520-21 (1972);

2

Case l:20-cv-00682-LTB-GPG Document 12 Filed 06/22/20 USDC Colorado Page 3 of 6

Hall v. Bellmon, 935 F.2d 1106, 1110 (10th Cir. 1991). However, the court should not
be an advocate fora pro se litigant. See Hall, 935 F.2d at 1110.
Mr. Chiras asserts three claims for relief. He contends in claim one that his
Sixth Amendment speedy trial rights were violated. According to Mr. Chiras, he was
arrested on February 10, 2017. (ECF No. 1 at 3). He pled not guilty by reason of
insanity (“NGRI”) on March 29, 2018. (Id. at 2-3). His trial commenced on January 18
2019. (Id. at 3). He was ultimately sentenced to one day to life for assault. (Id. at 2).
Mr. Chiras alleges that the time between his arrest and trial was 1 year 10 months and,
therefore, his speedy trial rights were violated.
He contends in claim two that he has been subjected to cruel and unusual
punishment in violation of his Eighth Amendment rights. To support claim two, he
alleges the following:
Denied lactose free diet, denied high calorie diet, lost 17
pounds, sexual harrassment [sic], assault, hurt back, HIPA
[sic] violation, Blocked letter, violation of freedom of speech
violation of attorney client privelage [sic], sleep deprived,
Put on bus with someone I was supposed to be segregated
from, discriminated against with assignment of cellmate,
ignored by deputy when threatened verbally, property
stolen, Ignored by mental health after sexual harrassment
[sic], pressured into signing a waiver of 35 day rule, no
Miranda Rights, harrassed [sic] about medication, given
someone else’s medication, Punched wall, denied peer
restriction, denied apts. w/ Whitney Lockhart, denied
restraining order and peer restriction against Maleek Green
denied legally mandated diet in a State facility, Police
Charge not filed, Privacy Act violated, abandonment - my
attorney did not show up to see me for over 30 days and
filed for extension against my wishes.
(ECF No. 1 at 3-4).
In claim three, he asserts that his Fourteenth Amendment due process rights
3

Case l:20-cv-00682-LTB-GPG Document 12 Filed 06/22/20 USDC Colorado Page 4 of 6

were violated because of harassment and mail tampering. For relief, he requests
release from CMHIP.
II.

Standard of Review
The writ of habeas corpus is available if a prisoner “is in custody in violation of

the Constitution or laws or treaties of the United States.” 28 U.S.C. § 2241 (c)(3). A
habeas proceeding is "an attack by a person in custody upon the legality of that
custody, and ... the traditional function of the writ is to secure release from illegal
custody.” McIntosh v. U.S. Parole Common, 115 F.3d 809, 811 (10th Cir.1997)
(quoting Preiser v. Rodriguez, 411 U.S. 475, 484 (1973)). “Petitions under § 2241 are
used to attack the execution of a sentence,.. . [while] § 2254 habeas and § 2255
proceedings,... are used to collaterally attack the validity of a conviction and
sentence." McIntosh v. United States Parole Comm’n, 115 F.3d 809, 811 (10th Cir.

1997).
III.

Analysis
As Mr. Chiras was informed in the May 1,2020 Order to Amend, his habeas

application is deficient because he has not asserted any cognizable § 2241 habeas
claims. First, Applicant’s second and third claims challenge the conditions of his
confinement and not the execution of his sentence. Such claims may not be asserted
in a habeas corpus action. “[P]risoners who wish to challenge only the conditions of
their confinement, as opposed to its fact or duration, must do so through civil rights
lawsuits filed pursuant to 42 U.S.C. § 1983 or Bivens v. Six Unknown Named Agents
403 U.S. 388 (1971) - not through federal habeas proceedings." Standifer v. Ledezma
653 F.3d 1276, 1280 (10th Cir. 2011). Constitutional attacks pursuant to 42 U.S.C.
4

Case l:20-cv-00682-LTB-GPG Document 12 Filed 06/22/20 USDC Colorado Page 5 of 6

§ 1983 or Bivens that do not affect the fact or duration of confinement are not grounds
for federal habeas corpus relief and therefore should not be brought in a habeas
corpus petition. See Nelson v. Campbell, 541 U.S. 637, 643 (2004).
Therefore, claims two and three are not proper habeas claims. To the extent
Mr. Chiras includes some vague factual allegations in claim two regarding the potential
validity of his conviction and sentence, such as “no Miranda rights” and ineffective
assistance of counsel, those allegations are not conditions of confinement claims but
may be an attempt to challenge his conviction or sentence. As Mr. Chiras was
informed in the May 1,2020 Order to Amend, if he is attempting to challenge his
conviction or sentence, he should pursue such claims through a § 2254 habeas action.
"Petitions under § 2241 are used to attack the execution of a sentence,... [while]
§ 2254 habeas and § 2255 proceedings,.. . are used to collaterally attack the validity
of a conviction and sentence.” McIntosh v. United States Parole Comm’ n, 115 F.3d
809, 811 (10th Cir. 1997); see also Palma-Salazar v. Davis, 677 F.3d 1031, 1035 (10th
Cir. 2012) (discussing distinction between habeas corpus claims pursuant to § 2241
and conditions of confinement claims raised in civil rights actions).
Additionally, Mr. Chiras’s first claim appears to attack the validity of his
conviction, not the execution of his sentence. Mr. Chiras is not a pretrial detainee; he
has been sentenced. (See ECF No. 1 at 2). Therefore, his allegation of a speedy trial
violation challenges his conviction and sentence, not the execution of his sentence.
Such claim is properly asserted pursuant to 28 U.S.C. § 2254 rather than 28 U.S.C.
§ 2241. See Montez v. McKinna, 208 F.3d 862, 865 (10th Cir. 2000); see Yellowbear v.

5

Case l:20-cv-00682-LTB-GPG Document 12 Filed 06/22/20 USDC Colorado Page 6 of 6

Wyoming Atty. Gen., 525 F.3d 921,924 (10th Cir. 2008) (“Section 2241 is a vehicle ...
for attacking the execution of a sentence ... A § 2254 petition, on the other hand, is
the proper avenue for attacking the validity of a conviction and sentence.") (citations
omitted).
Mr. Chiras has not asserted any cognizable habeas claims pursuant to 28
U.S.C. § 2241. Therefore, I recommend that the habeas application be dismissed.
III.

Recommendation
For the reasons set forth herein, this Magistrate Judge respectfully
RECOMMENDS that the Application for a Writ of Habeas Corpus Pursuant to 28

U.S.C. § 2241 (ECF No. 1) and this action be DISMISSED WITHOUT PREJUDICE for
failure to assert a cognizable § 2241 habeas corpus claim.
DATED June 22, 2020.
BY THE COURT:

Gordon P. Gallagher
United States Magistrate Judge

6

